Audit of USAID/Kenya’s Management of U.S.
Personal Services Contractors

Audit Report No. 4-615-04-004-P
March 15, 2004




        PRETORIA, SOUTH AFRICA
March 15, 2004


MEMORANDUM
FOR:           USAID/Kenya Mission Director, Kiertisak Toh

FROM:          Regional Inspector General/Pretoria, Jay Rollins /s/

SUBJECT:       Audit of USAID/Kenya’s Management of U.S. Personal Services
               Contractors (Report No. 4-615-04-004-P)

This memorandum is our report on the subject audit. In finalizing this report, we
considered management comments on the draft report and have included those
comments, in their entirety, as Appendix II in this report.

This report has one recommendation. In response to the draft report,
USAID/Kenya concurred with the recommendation and approved and
implemented a corrective action plan to address our concerns. Therefore, we
consider that final action has been taken on the recommendation.

I appreciate the cooperation and courtesy extended to my staff throughout the
audit.




                                                                                    1
[This page intentionally left blank.]




                                        2
Table of   Summary of Results ...............................................................................................5
Contents
           Background ............................................................................................................5

           Audit Objectives.....................................................................................................6

           Audit Findings........................................................................................................7

                    Did USAID/Kenya determine its requirements for U.S. personal services
                    contractors in accordance with USAID policies and procedures?...............7

                    Did USAID/Kenya award U.S. personal services contracts in accordance
                    with selected USAID policies and procedures?...........................................9

                               All USPSC Files Need to Contain Evidence of Grade-level
                               Reviews..........................................................................................10

           Appendix I: Scope and Methodology...................................................................13

           Appendix II: Management Comments .................................................................15




                                                                                                                                      3
[This page intentionally left blank.]




                                        4
Summary of   The Regional Inspector General/Pretoria conducted this audit to determine whether
Results      USAID/Kenya (1) determined its requirements for U.S. personal services
             contractors in accordance with USAID policies and procedures, and (2) awarded
             U.S. personal services contracts in accordance with selected USAID policies and
             procedures. (See pages 6-7.)

             The Mission has determined its requirements for U.S. personal services contractors
             (USPSCs) in accordance with USAID policies and procedures. USAID/Kenya
             has used USPSCs as an integral part of its workforce to supplement its limited
             number of U.S. direct hires, as well as to meet the Mission’s increased
             responsibilities. USPSCs have been used to fill positions that require technical
             skills along with experience. In fact, the Mission has used USPSCs to fill
             important positions, including that of the Controller. When possible, the Mission
             tries to use locally hired USPSCs because they cost less than internationally
             recruited USPSCs. (See pages 7-9.)

             This audit found that USAID/Kenya awarded its U.S. personal services contracts in
             accordance with selected USAID policies and procedures for ensuring full and
             open competition and establishing salaries and fringe benefits. However, the
             Mission had not taken action to ensure that the required grade-level reviews were
             performed for all USPSC positions and that the results of the reviews were
             included in the USPSC files. (See pages 9-11.)

             This report contains one recommendation to help USAID/Kenya improve its
             management of USPSCs. (See page 11.)

             In response to the draft report, USAID/Kenya concurred with the
             recommendation. In addition, the Mission recently approved and implemented a
             process to grade, classify, and set the market value of personal services contractor
             positions. Therefore, we consider that a management decision has been reached
             and that final action has been taken. (See page 12).


Background   The USAID/Kenya Mission is co-located with USAID’s Regional Economic
             Development Services Office for East and Southern Africa (USAID/REDSO/ESA)
             in Nairobi, Kenya. The overall goal of the Mission is to build a democratic and
             economically prosperous Kenya. This goal is addressed through four objectives:

             •   improving the balance of power among the institutions of governance,

             •   promoting sustainable use of natural resources,

             •   improving rural incomes by increasing agricultural and rural enterprise
                 opportunities, and



                                                                                               5
             •   improving health conditions.

             In May 2003, during the Triennial Review of USAID/Kenya’s Integrated Strategic
             Plan 2001-2005, it was agreed that USAID/Kenya should develop a special
             objective in trade and investment as well as a strategic objective in education.

             In order to accomplish its objectives, USAID/Kenya uses several workforce
             categories. As of September 30, 2003, USAID/Kenya reported that its staffing of
             141 individuals included the following workforce categories:

                 •   126 foreign service national personal services contractors.

                 •   6 U.S. personal services contractors (USPSCs)—this included 5 USPSCs
                     hired internationally and 1 USPSC hired locally.

                 •   6 U.S. direct hires.

                 •   3 individuals in miscellaneous categories—including 1 U.S. Fellow, 1
                     employee under a Participating Agency Service Agreement, and 1 U.S.
                     Technical Advisor in AIDS, Child Survival, and Population.

             The risk associated with being located in Nairobi, Kenya, has been a challenge for
             USAID/Kenya. On May 16, 2003, the United States Department of State (DOS)
             issued a travel warning because of increased security concerns in Kenya based on
             indications of terrorist threats in the region aimed at American and western interests.
             DOS authorized the voluntary departure of family members and non-emergency
             personnel at the U.S. Embassy in Kenya. USAID/Kenya staff and their families
             were part of this authorized departure. On September 25, 2003, a DOS travel
             warning noted that the authorized departure of non-emergency employees and
             family members was rescinded even though the warning said that terrorist threats
             continue against Americans. Concerns of terrorist actions against Americans in
             Kenya are not new. On August 7, 1998, the United States Embassy in Nairobi was
             destroyed by terrorists resulting in a large number of human casualties.

             This audit includes USPSCs with active contracts for the period of October 1, 2002
             to November 25, 2003.


Audit        This audit was conducted at USAID/Kenya as part of a worldwide effort to review
Objectives   USAID’s management of U.S. personal services contractors. The audit was
             designed to answer the following questions relating to the management of USPSCs.

             •       Did USAID/Kenya determine its requirements for U.S. personal services
                     contractors in accordance with USAID policies and procedures?




                                                                                                  6
                 •       Did USAID/Kenya award U.S. personal services contracts in accordance
                         with selected USAID policies and procedures?

                 Appendix I contains a discussion of the audit's scope and methodology.

Audit Findings   Did USAID/Kenya determine its requirements for U.S. personal services
                 contractors in accordance with USAID policies and procedures?

                 The audit found that USAID/Kenya determined its requirements for U.S. personal
                 services contractors (USPSCs) in accordance with USAID policies and
                 procedures.

                 USAID’s Automated Directives System (ADS) Series 400 Interim Update #2,
                 provides USAID managers guidance on the appropriate roles and responsibilities
                 of USPSCs and other employment mechanisms.1 This guidance states that when
                 a position must be filled by a U.S. citizen, the first option for filling it should be
                 through the assignment of a direct hire employee. The responsibility for
                 managing the core business areas and basic work of USAID lies with U.S. direct
                 hire (USDH) employees. The guidance recognizes that to augment and facilitate
                 the efforts of the USDH workforce in meeting the objectives of the Agency,
                 duties and responsibilities need to be assigned and authorities delegated to other
                 types of employees. The guidance provides for using USPSCs when USDHs or
                 re-employed annuitants are not available to fulfill a permanent staffing
                 requirement.2

                 USAID/Kenya is allocated a set number of USDH positions by
                 USAID/Washington. Mission management has used these USDHs to staff
                 important positions in the Mission, such as the Mission Director, Supervisory
                 Program Officer in the Director’s Office, group leader program positions, and
                 Executive Officers.3 USAID/Kenya’s USDH staff level has declined by 50
                 percent since 1995—from 12 USDHs to 6. According to a senior Mission
                 official, the Mission is at a “bare bone” level for USDHs.

                 Faced with a limited number of USDHs and increasing Mission responsibilities,
                 Mission officials have used USPSCs to supplement their workforce.4 According
                 to a Mission official, each organizational office and strategic objective team
                 should have a USDH in charge. This official acknowledged that this is not
                 always possible. Thus, USPSCs are used to supplement the workforce when

                 1
                  This is entitled, “Appropriate Use and Funding of USAID’s Non-Direct Hire Workforce,” dated
                 September 18, 1995.
                 2
                  Re-employed annuitants are Agency retirees who have limited direct hire appointments.
                 3
                  USAID/Kenya’s Executive Officers are responsible for contract duties related to locally recruited
                 USPSCs for USAID’s Regional Economic Development Services Office for East and Southern
                 Africa (USAID/REDSO/ESA), as well as other services because USAID/REDSO/ESA does not
                 have its own Executive Officer. In turn, USAID/REDSO/ESA provides contracting services for
                 internationally recruited USPSC positions for USAID/Kenya.
                 4
                   Foreign service nationals have also been used to supplement the decrease of USDHs.


                                                                                                                  7
USDHs are not available. More recently, this situation occurred in May 2003.
During that time, a USAID/Kenya Triennial Review of the Mission’s Integrated
Strategic Plan was conducted, which involved several USAID/Washington
offices. As a result of the Triennial Review, the Mission was given additional
responsibilities in the areas of trade and investment, and education. However,
additional USDHs were not allotted to the Mission to oversee these program
areas. According to the cable that reported on the Triennial Review, “while
participants at the review recognized the need for additional staff to oversee new
program areas, direct-hire staff are not available, but PSCs could fill these
positions.” In November 2003, a senior Mission official said that they had
received approval from USAID/Washington to increase its USDH staff by two, in
order to address these new areas. However, Ambassadorial approval would be
needed to increase the size of the Mission’s staff.

According to a senior Mission official, having fewer USDHs at the Mission has
resulted in USPSCs having more responsibilities.5 The Mission places USPSCs
in positions where (1) financial and managerial risks need to be minimized and
(2) technical skills and experience are needed. When a USPSC is needed, the
Mission will try to hire a local USPSC because the cost is substantially less than
hiring an international USPSC. There is also a talent base of Americans who
reside in Kenya. However, the determining factor for using a USPSC
international hire is if the position requires technical skills that are not available
locally.

Below are two examples of important positions at USAID/Kenya that are being
filled by USPSCs. The Mission requested, in its fiscal year 2003 Annual Report
Part II, that a USDH Controller be considered as well as a USDH Democracy and
Governance Officer. Because the Mission has a limited number of USDHs, it
staffs these two important positions with USPSCs.

    •    The Controller position is staffed by a retired Foreign Service Officer who
         previously worked for USAID as a Controller. Given the complexity and
         scope of the Mission’s programs, the Mission wanted a U.S. citizen who
         was an experienced controller in order to reduce any potential
         vulnerability.6

    •    The Democracy and Governance Officer position is staffed by an attorney
         who has much experience in this area and serves as the Office Chief.
         This position requires working closely with the Embassy and high-ranking

5
 According to USAID’s Acquisition Regulation, Appendix D, section 4.b.3, USPSCs may not (1)
supervise USDHs or U.S. government employees, (2) be designated as contracting officers or
delegated authority to sign obligating or sub-obligating documents, (3) communicate a final
policy, planning or budget decision of the Agency unless that communication has been cleared by
a USDH, and (4) be delegated the authority to make a final decision on personnel selections.
6
 It was noted that responsibilities associated with this position which can only be carried out by a
USDH are carried out by the Mission Director.


                                                                                                   8
        Kenyan government officials and, because sensitive political issues are
        encountered in this position, a U.S. citizen was required.

Concerns of terrorism in Kenya are constraining the Mission’s ability to staff
positions with U.S. citizens. According to a Mission official, there is much
pressure being exerted by the U.S. Embassy in Nairobi not to increase the number
of Americans working in Kenya for U.S. agencies, including the Mission. As
stated previously, the Mission has received approval from USAID/Washington for
two additional USDH positions. However, the Mission will need to obtain
approval from the Ambassador to add the two positions to its staffing level.

The audit found that USAID/Kenya determined its requirements for USPSCs in
accordance with USAID policies and procedures. Nevertheless, the Mission’s
ability to continue using USPSCs to supplement its USDH workforce in the future is
in question. The Mission is experiencing the effects of working in a country where
terrorism continues to be a major concern. USAID/Kenya may find itself in the
difficult position of trying to grapple with increasing responsibilities with fewer U.S.
direct hires and USPSCs.
Did USAID/Kenya award U.S. personal services contracts in accordance
with selected USAID policies and procedures?

USAID/Kenya awarded its U.S. personal services contracts in accordance with
selected USAID policies and procedures such as those for full and open
competition and for establishing salaries and fringe benefits. However, our
review of the contract files for all USPSC positions found that documentation
could not be located that showed that the required grade-level reviews were
conducted.

USAID/Kenya followed USAID policies and procedures for establishing full and
open competition, salaries, and fringe benefits. Our review of the documentation
in the contract files indicated all USPSCs were hired under full and open
competition. Our review of USPSC contract files found documentation of several
applications received for each position which identified the number of qualified
candidates. From this group, a minimum number of three candidates were
interviewed (if possible). We also found that the USPSC position salaries were
established in accordance with USAID policy, and the files contained historical
salary information on the USPSCs. Finally, the audit found that the five USPSC
international hires and the one USPSC local hire received the correct benefits to
which they were entitled.7

In spite of adhering to proper contracting practices for USPSCs, USAID/Kenya
still needs to take corrective action to strengthen its contracting of USPSCs. The
Mission’s actions did not ensure that all USPSC contracts were supported with

7
USPSC local hires receive limited benefits. USPSC international hires receive benefits similar to
USDHs.


                                                                                                9
evidence that the required grade-level reviews were conducted. Thus, we are
making a recommendation, provided in the following section, that will address
this problem.

All USPSC Files Need to Contain
Evidence of Grade-level Reviews

USAID’s Acquisition Regulation (AIDAR) and its Contract Information Bulletin
(CIB) 96-8 require that correct market values be established for USPSC positions
that are to be filled through a market analysis or grade-level review. This action
is further defined by the CIB, which requires that all contract files be documented
to indicate that a grade-level review was performed. The audit found that one-
third of the USPSC contract files reviewed for USAID/Kenya lacked
documentation that grade-level reviews had been conducted. The USPSC
contract files without documentation for grade-level reviews were for
international hires contracted for the Mission by USAID’s Regional Economic
Development Services Office for East and Southern Africa (USAID/REDSO/ESA).
USAID/REDSO/ESA has a process to conduct the reviews and to document this
action in the files. REDSO officials could not explain why some of the files
lacked documentation, since the contracting staff who worked on the contracts in
question no longer work at the Mission. However, USAID/Kenya did not ensure
that the required grade-level reviews were performed for all of its USPSC
positions and that the results of reviews were in the contract files. Without
documentation in the contract files, there exists a risk that USPSC positions are
being established at unrealistic and unreasonable market values.

The Federal Acquisition Regulation and AIDAR govern contracts awarded by
USAID. AIDAR, Appendix D, Section 4 states that salaries for USPSCs shall be
based on the market value of the position in the United States. This requires the
Contracting Officer, in coordination with the Technical Officer, to determine the
correct market value (a salary range) for the position being filled. The market
value of the position then becomes the basis, along with the applicant’s certified
salary history, for salary negotiations by the Contracting Officer. Any position
which is determined to be above the General Schedule (GS)-13 equivalent and
which exceeds six months in duration must be classified by USAID’s Bureau for
Management, Office of Human Resources/Personnel Operations Division
(M/HR/POD). The intent of this requirement is to establish a realistic and
reasonable market value for the position. The final determination regarding the
reasonableness of a salary level rests with the Contracting Officer. Paying
salaries using this method avoids “rank in person” salaries which are in excess of
the value of the position contracted. USAID’s CIB 96-8 states that “the GS grade
represents the market value of the work to be performed; the GS salary range
represents agreement within the US Government as to approximately what
USAID should be paying to have that work accomplished. All contract files must
be documented to indicate that a grade-level review was performed, and the
results of that review.”



                                                                                10
The audit found that two of six USPSC contract files (33 percent of the
population) which were active during the scope of the audit, lacked
documentation that grade-level reviews were performed. Both of these USPSC
contracts were for GS-14 positions that would have required an M/HR/POD
classification review. One of these contracts was for the Controller position.

Because these two GS-14 positions were USPSC international hires,
USAID/REDSO/ESA was responsible for contracting for these positions, as well
as for ensuring that M/HR/POD conducted a position classification.
USAID/REDSO/ESA contracting officials have a process, which is not written, to
obtain grade-level reviews or classification reviews for all USPSCs and to
document this action in the files. However, they could not explain why some of
the files lacked documentation, since the contracting staff who worked on the
contracts in question no longer work at the Mission. When the audit team
requested the missing documentation for the two USPSC contracts, the Mission
was unable to provide the documents or produce evidence that, in those cases, it
had obtained a classification from M/HR/POD. The audit team noted that the
USAID/REDSO/ESA contract files contained a checklist of many important
documents to be kept in the contracting files, but it did not require documentation
for a grade-level review or position classification. Finally, USAID/Kenya had not
taken action to ensure that the required grade-level reviews were performed by
USAID/REDSO/ESA and that these results were included in the USPSC files.

Without documentation that position grade-level reviews have been conducted for
all USPSC positions, there exists a risk that USPSC positions are being
established at unrealistic and unreasonable market values. The intent of AIDAR
Appendix D is to avoid paying “rank in person salaries” which would be in excess
of the value of the job that is being contracted.

Although USAID/Kenya has a process in place to ensure that contracts for its
USPSCs are in compliance with Federal and USAID contracting requirements, this
one area needs improvement. The grade-level review is important because it
establishes the basis for USPSC salaries. In this case, the Mission needs to ensure
that the contracting actions that USAID/REDSO/ESA makes on its behalf follow
contracting requirements. Therefore, we are making the following recommendation.

       Recommendation No. 1: We recommend that USAID/Kenya develop
       and implement a system to ensure that its U.S. personal services
       contracts, which are to be executed by USAID/REDSO/ESA’s
       contracting officers, are executed only after a grade-level review has
       been conducted and documented in the contract file. As part of the
       system, we suggest that USAID/Kenya modify the checklist found in
       USAID/REDSO/ESA’s U.S. personal services contracts files to help
       achieve this purpose.




                                                                                11
Management   In response to our draft report, USAID/Kenya management concurred with
Comments     Recommendation No. 1. The Mission also approved and implemented a
             corrective action plan to address the recommendation. Therefore, we consider
and Our
             that a management decision has been reached and that final action has been taken.
Evaluation




                                                                                           12
                                                                                Appendix I


Scope and     Scope
Methodology
              The Regional Inspector General/Pretoria conducted this audit in accordance with
              generally accepted government auditing standards. This audit is part of a
              worldwide audit led by the Office of Inspector General’s Performance Audits
              Division in Washington, D.C. The audit was designed to answer the following
              questions:

              1. Did USAID/Kenya determine its requirements for U.S. personal services
                 contractors in accordance with USAID policies and procedures?

              2. Did USAID/Kenya award U.S. personal services contracts in accordance with
                 selected USAID policies and procedures?

              The audit included U.S. personal services contractors (USPSCs) contracts that
              were active during the period of October 1, 2002, through November 25, 2003. In
              planning and performing the audit, we tested and assessed significant management
              controls related to the Mission’s awarding of USPSC contracts. In this effort, we
              tested for full and open competition for all six USPSC contracts that had been
              awarded. Further, we assessed the management controls used to establish salaries
              and benefits. Finally, we determined whether subsequent annual salary increases
              were in accordance with the contracts. The contracting officer is the significant
              management control in overseeing these three areas

              The types of evidence examined during the audit included—but were not limited
              to—the Mission’s Annual Report, Strategic Plan, staffing pattern, and relevant
              documents contained in the USPSC contract files. We also interviewed Mission
              officials from USAID/Kenya and contracting officials from USAID’s Regional
              Economic Development Services Office for East and Southern Africa
              (USAID/REDSO/ESA). The audit was conducted at USAID/Kenya in Nairobi,
              Kenya, from November 13, 2003 to November 25, 2003.

              Methodology

              In order to answer the first objective, we reviewed USAID/Kenya’s Strategic Plan
              2001-2005. We also reviewed the Mission’s Annual Report for Fiscal Year 2003.
              In addition, we analyzed the Mission’s staffing pattern as of September 30, 2003.
              Finally, interviews were conducted with USAID/Kenya’s officials, including both
              senior management and program managers, to determine how staffing decisions
              were made for USPSCs and the basis for using this workforce category.

              To answer the second objective, we reviewed the USPSC contracting files to
              determine if they included sufficient documentation to indicate compliance with
              USAID policies and procedures. The files included negotiation memos, contracts,



                                                                                             13
solicitations, and the Technical Evaluation Memorandum which showed full and
open competition in awarding the contracts, salary histories, benefits, and the basis
for establishing salaries. In reviewing annual salary increases, we established a
materiality threshold of 1 percent (plus or minus) for variances that occurred
between the General Schedule Salary Table and the USPSCs’ pay increases.
When variances occurred, we met with an official from the Controller’s office to
identify why the variances occurred. Finally, when important documents could
not be found in the USPSC contract files, we notified Mission staff from both
USAID/Kenya and USAID/REDSO/ESA, and requested that they locate the
missing documentation and provide it to us.




                                                                                  14
                                                                                           Appendix II


Management
Comments                                  UNITED STATES OF AMERICA
                                    AGENCY FOR INTERNATIONAL DEVELOPMENT
                                                      U.S.A.I.D. MISSION TO KENYA



                            UNITED STATES POSTAL SERVICE                      INTERNATIONAL POSTAL ADDRESS
                                     USAID KENYA                                        USAID KENYA
                                      UNIT 64102                                  P.O. BOX 30261 00100 GPO
                                  APO AE 09831 - 4102                                  NAIROBI, KENYA
                                                                                     TEL:254-20-862400/02
                                                                                  FAX: 254-20-860870/949/562




             MEMORANDUM

             DATE:        March 08, 2003

             TO:          Jay Rollins RIG/Pretoria

             FROM:        Kiertisak Toh, Mission Director, USAID/Kenya /s/

             SUBJECT: Audit of USAID/Kenya’s Management of U.S. PSCs

             The purpose of this memo is to communicate USAID/Kenya’s management comments
             regarding the recommendation appended below per the subject report:

             Recommendation No. 1 states “We recommend that USAID/Kenya develop and implement a
             system to ensure that its U.S. Personal Services Contracts, which are to be executed by
             USAID/REDSO/ESA’s contracting officers, are executed only after a grade-level review has
             been conducted and documented in the contract file. As part of the system, we suggest that
             USAID/Kenya modify the checklist found in USAID/REDSO/ESA’s U.S. Personal Services
             files to help achieve this purpose”.

             Management Comments: The Director, Regional Acquisition and Assistance Officer,
             USAID/REDSO/ESA has established a process to ensure that the required grade level reviews
             or position classifications are performed for all personal services contract positions and are
             included in the contract files. This process includes the establishment of clear procedures for
             grading, classifying and setting the market value of Personal Services Contracts.

             As the USAID/Kenya Mission Director, I have reviewed and approved this process for
             immediate implementation in executing U.S. Personal Services Contracts. (Copy of the
             approved process attached).

             I therefore request that the above recommendation be resolved.




                                                                                                               15
                                UNITED STATES OF AMERICA
                          AGENCY FOR INTERNATIONAL DEVELOPMENT
                              REGIONAL ECONOMIC DEVELOPMENT SERVICES OFFICE
                                         EAST AND SOUTHERN AFRICA
                                                   KENYA
                  UNITED STATES POSTAL SERVICE                       INTERNATIONAL POSTAL ADDRESS
                           REDSO/ESA                                            REDSO/ESA
                            UNIT 64102                                   P.O. BOX 30261 00100 GPO
                        APO AE 09831 - 4102                                   NAIROBI, KENYA
                                                                            TEL:254-20-862400/02
                                                                         FAX: 254-20-860870/949/562




ACTION MEMORANDUM FOR THE "HEAD OF THE CONTRACTING ACTIVITY


From:    Gary Juste, Director, Regional Acquisition and Assistance Office, USAID/REDSO/ESA
         /s/

Subject: Grade Review and Position Classification process for all Personal Services Contracts

Date:    February 13, 2004

Action: Approval of the process to ensure the required grade level reviews or position
classifications are performed for all Personal Services Contract positions and are included in the
contract files.

Discussion: The process shall include the establishment of clear procedures for grading,
classifying and setting the market value of PSC positions.

1. Once an office determines a need for a PSC position, it will prepare a position
description/statement of work (SOW) and make a recommendation for a grade based on the duties
of the incumbent.

2. The position description/SOW will be provided to the Human Resources Section/ Executive
Office for classification and final determination of the appropriate grade. The grade will provide
the salary range which then constitutes the position’s market value.

3. The determination will be attached to the MAARD and submitted to Acquisition and
Assistance office to be contracted.

4. Upon selection of a candidate, the Contracting Officer will negotiate a salary based on salary
history within the range of the grade of the classified position.

5. The documentation for the above process will be included in all PSC contract files.

Recommendation

It is recommended that you approve this process

                                                 Approved: Kiertisak Toh, Mission Director /s/
                                                 Date: March 4, 2004
Clearances:
Executive Officer, Tom Ray /s/
Controller, Rashmi Amin /s/




                                                                                                      16
